No. 20-1438

In the
Supreme Court of the United States
TINA CATES, PETITIONER,
v.
BRUCE D. STROUD BRIAN WILLIAMS, SR.; JAMES DZURENDA; ARTHUR EMLING, JR.;
MYRA LAURIAN, RESPONDENT.
ON PETITION FOR WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Proof of Service

Christopher M. Peterson*
Senior Staff Attorney
ACLU of Nevada
601 S. Rancho Dr. #B-11
Las Vegas, NV 89106
(702) 518-4202
*Counsel of record for amici curiae

I certify that on May 11, 2021, my office served counsel for both parties in this
case with copies of the foregoing brief of amici curiae of the American Civil Liberties
Union of Nevada, National Lawyers Guild Las Vegas Chapter, Nevada Attorneys for
Criminal Justice, University of Nevada Las Vegas Policing and Protest Clinic, Mass
Liberation Nevada, and Forced Trajectory Project in support of Petitioner in Cates v.
Stroud, No. 20-1438.
I certify my office served counsel for Petitioner with a copy of the amicus brief
via electronic means. On April 15, 2020, this Court entered a standing order
authorizing electronic service with the parties’ consent. Counsel for Petitioner has
consented to electronic service. Counsel’s address is as follows:
James R. Sigel
Morrison & Foerster LLP
425 Market Street
San Francisco, CA 94105
(415) 268-6948
JSigel@mofo.com
I certify my office served counsel for Respondent with a copy of the amicus brief
via electronic means. Counsel for Respondent has consented to electronic service.
Counsel’s address is as follows:
Aaron D. Ford, Attorney General
D. Randall Gilmer, Chief Deputy Attorney General
Frank Anthony Toddre, Senior Deputy Attorney General
Office of the Nevada Attorney General
Suite 3900555
East Washington Avenue
Las Vegas, NV 89101
Tel.: (702) 486-3149
Email: ftoddre@ag.nv.gov

1

Dated May 11, 2021

ristopher M. Peterson*
Senior Staff Attorney
ACLU of Nevada
* Counsel of record for amici curiae

. r•

2

